CERTIFICATE OF SERVICE
No. __-____
WILLIAM O. FULLER, as
Successor Personal Representative of
the Estate of ROBERT OTIS FULLER,
v.

Petitioner,

BANCO BILBAO VIZCAYA ARGENTARIA, S.A.,
Respondent.
I, James W. Perkins, counsel for William O. Fuller as Successor Personal
Representative of the Estate of Robert Otis Fuller, hereby certify that, on July 16,
2020, my firm obtained written consent from counsel of record for Respondent, Banco
Bilbao Vizcaya Argentaria, S.A to electronically serve the Petition for Writ of
Certiorari in accordance with the Court’s April 15, 2020 Order, Order List 589 U.S.
__ (the “Order”). I further certify that, on July 20, 2020, I caused a true and correct
copy of the Petition for Writ of Certiorari to be served electronically pursuant to the
Order, on counsel of record for Respondent Banco Bilbao Vizcaya Argentaria, S.A.:
KENNETH A. CARUSO
WHITE & CASE LLP
1221 Avenue of the Americas
New York, New York 10020-1095
(212) 819-8200
kenneth.caruso@whitecase.com
I further certify that all parties required to be served have been served.

1

James W. Perkins
GREENBERG TRAURIG, LLP
200 Park Avenue
New York, New York 10166
(212) 801-9200
perkinsj@gtlaw.com
Roberto Martinez
COLSON HICKS EIDSON, P.A.
255 Alhambra Circle, Penthouse
Coral Gables, Florida 33134
305-476-7400
bob@colson.com
Counsel for Petitioner

2

